J. MICHAEL JAKES
202.408.4045
mike.jakes@finnegan.com

September 4, 2019
Honorable Scott S. Harris
Clerk of Court
United States Supreme Court
One First Street, N.E.
Washington, D.C. 20543
Re:

Time Warner Cable, Inc., et al. v. Sprint Communications
Company, L.P., No. 19-211

Dear Mr. Harris:
A petition for writ of certiorari in this case was filed on August 15, 2019, and placed on
the docket on August 19, 2019. The response of Respondent Sprint Communications Company,
L.P., is currently due on September 18, 2019.
Respondent is requesting, under Rule 30.4 of the Rules of this Court, a 7-day extension of
time up to and including September 25, 2019, to file its response to the petition. The extension of
time is requested in light of other work obligations of Respondent’s counsel, including workrelated travel and other briefs that are due in other cases during the same time period.
Thank you for your consideration of this request.
Sincerely,
/s/ J. Michael Jakes
cc:

John C. O’Quinn,
Counsel for Petitioner
(via email)

J. Michael Jakes

901 NEW YORK AVENUE, NW | WASHINGTON, DC 20001-4413
PHONE: +1 202 408 4000 | FAX: +1 202 408 4400

